DISCUSSION DRAFT
                                                             OFFICE OF JOB CORPS




               Office of Inspector General—Office of Audit




                                                             AUDIT OF EDUCATION AND TRAINING
                                                             RESOURCES, JOB CORPS CENTER OPERATOR




                                                                                      Date Issued: March 18, 2010 

                                                                                    Report Number: 26-10-003-01-370

U.S. Department Of Labor                                    March 2010
Office of Inspector General
Office of Audit                                             PERFORMANCE AUDIT FOR EDUCATION AND
                                                            TRAINING RESOURCES, JOB CORPS CENTER
                                                            OPERATOR
BRIEFLY…
Highlights of Report Number 26-10-003-01-370, to the        WHAT OIG FOUND
National Director, Office of Job Corps.                     ETR did not always ensure compliance with Job Corps
                                                            requirements for managing and reporting financial
WHY READ THE REPORT                                         activity in one of three areas reviewed — non-personnel
This report discusses Education and Training                expenses. Iroquois bypassed procurement and
Resources (ETR) control weaknesses related to               accounting controls through improper use of the
managing and reporting financial activity, managing         center’s imprest fund and did not always maintain
safety and health programs, and reporting performance.      required documentation to support reported expenses.
ETR is under contract with the Office of Job Corps to       As a result, goods and services were not purchased in
operate four Job Corps centers for the U.S. Department      accordance with Federal Acquisition Regulations (FAR)
of Labor,                                                   and payments were made without adequate assurance
                                                            that the disbursed amounts were appropriate.
WHY OIG CONDUCTED THE AUDIT
Our audit objectives were to answer the following           ETR can improve its oversight to ensure center
questions:                                                  compliance in each of the three safety and health
                                                            program areas reviewed — safety inspections, safety
1.	 Did ETR ensure compliance with Job Corps                committee meetings, and student misconduct. At
    requirements for managing and reporting financial       Iroquois, weekly inspections were not documented;
    activity?                                               monthly inspections were limited in scope; and safety
                                                            committee meetings were not held consistently. For
2.	 Did ETR ensure compliance with Job Corps                student misconduct, Iroquois did not always report
    requirements for managing center safety programs?       significant incidents, such as physical assault and
                                                            narcotics possession to Job Corps as required.
3.	 Did ETR ensure compliance with Job Corps
    requirements for reporting performance?                 ETR also had control weaknesses in one of three areas
                                                            relating to compliance with Job Corps requirements for
4.	 Did the hotline complaints alleging improper            reporting performance — Student
    practices pertaining to financial reporting, student    Attendance/Accountability. Iroquois reported at least
    accountability, student and staff conduct, and safety   two students as enrolled for extended periods when the
    programs at the Iroquois Job Corps Center have          students never actually arrived at the center and did not
    merit?                                                  obtain required Job Corps approval for extending
                                                            enrollment past the two-year limit established by Job
Our audit work was conducted at ETR headquarters in         Corps.
Bowling Green, Kentucky; and the Iroquois Job Corps
Center (Iroquois) in Medina, New York.
                                                            Two hotline complaint allegations pertaining to financial
                                                            management and student attendance had merit.
READ THE FULL REPORT
To view the report, including the scope, methodology,
                                                            WHAT OIG RECOMMENDED
and full agency response, go to:
                                                            We made nine recommendations to the National
                                                            Director, Office of Job Corps. In summary, we
http://www.oig.dol.gov/public/reports/oa/2010/
                                                            recommended Job Corps direct ETR to improve
26-10-003-01-370.pdf
                                                            controls over financial management and reporting,
                                                            safety and health programs, and performance reporting;
                                                            and pay to DOL questioned costs relating to
                                                            unsupported imprest fund transactions and excessive
                                                            holiday party costs, and liquidated damages for any
                                                            performance overstatements, as appropriate.

                                                            The National Director, Office of Job Corps, will require
                                                            ETR to improve its controls and will determine the
                                                            extent of any reimbursements owed to DOL.
PAGE INTENTIONALLY LEFT BLANK 

      U. S. Department of Labor – Office of Inspector General



Iroquois Job Corps Center
    Medina, New York




                                 Iroquois Job Corps Center




                                     Education and Training
                                     Resources Headquarters
                                     Bowling Green, Kentucky




                        Audit of ETR Job Corps Center Operator
                                   Report No. 26-10-003-01-370
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                           Audit of ETR Job Corps Center Operator
                                      Report No. 26-10-003-01-370
                                                     U. S. Department of Labor – Office of Inspector General



Table of Contents 

Assistant Inspector General’s Report ......................................................................... 1


Results In Brief ............................................................................................................ 2


Objective 1 — Did ETR ensure compliance with Job Corps requirements for 

             managing and reporting financial activity? ........................................ 4

         Finding — ETR did not always ensure compliance with Job Corps 

                  requirements for managing and reporting financial activity for 

                  one of the three areas reviewed — non-personnel expenses.. ............ 4


Objective 2 — Did ETR ensure compliance with Job Corps requirements for 

             managing safety programs? ................................................................ 9

         Finding 2 — ETR did not always ensure compliance with Job Corps
                    requirements at the Iroquois Center for safety in three areas
                    — safety inspections, safety committee meetings, and student 

                    misconduct......................................................................................... 9


Objective 3 — Did ETR ensure compliance with Job Corps requirements for 

             reporting performance? ..................................................................... 12

         Finding 3 — ETR had control weaknesses in one of three areas relating to 

                    compliance with Job Corps requirements for reporting 

                    performance — Student Attendance/Accountability......................... 12


Objective 4 — Did the hotline complaints alleging improper practices pertaining 

             to financial reporting, student accountability, student and staff 

             conduct, and safety programs at the Iroquois Job Corps Center 

             have merit? .......................................................................................... 15

         Finding 4 — Two of 18 hotline complaint allegations had merit.......................... 15


Exhibits
         Exhibit 1 Iroquois Center Procurement Procedures Comparison ....................... 21

         Exhibit 2 Summary of Allegations that Were Not Substantiated ......................... 23


Appendices
         Appendix A Background ..................................................................................... 27

         Appendix B Objectives, Scope, Methodology, and Criteria ................................ 29

         Appendix C Acronyms and Abbreviations .......................................................... 36

         Appendix D Job Corps Response to Draft Report .............................................. 39

         Appendix E ETR Response to Draft Report ....................................................... 43

         Appendix F Acknowledgements ......................................................................... 49



                                                                              Audit of ETR Job Corps Center Operator
                                                                                         Report No. 26-10-003-01-370
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





                           Audit of ETR Job Corps Center Operator
                                      Report No. 26-10-003-01-370
                                    U. S. Department of Labor – Office of Inspector General


U.S. Department of Labor                Office of Inspector General
                                        Washington, D.C. 20210




March 18, 2010

                        Assistant Inspector General’s Report



Edna Primrose
National Director
Office of Job Corps
200 Constitution Avenue, N.W
Washington, D.C. 20210

The Office of Inspector General (OIG) conducted a performance audit of Education and
Training Resources (ETR). ETR is under contract with the Office of Job Corps (Job
Corps) to operate four Job Corps centers for the U.S. Department of Labor (DOL). Job
Corps requires its center operators to establish procedures and conduct periodic center
audits to ensure integrity, accountability, and prevention of fraud and program abuse.
We had initially planned to pursue three audit objectives during our audit. However, in
response to two hotline complaints, we added a fourth objective to determine whether
allegations that ETR officials engaged in improper practices at the Iroquois Job Corps
Center had merit.

The audit objectives were to answer the following questions:

   1. Did ETR ensure compliance with Job Corps requirements for managing and
      reporting financial activity?

   2. Did ETR ensure compliance with Job Corps requirements for managing center
      safety programs?

   3. Did ETR ensure compliance with Job Corps requirements for reporting 

      performance? 


   4. Did the hotline complaints alleging improper practices pertaining to financial
      reporting, student accountability, student and staff conduct, and safety programs
      at the Iroquois Job Corps Center have merit?

This report covers our audit work conducted at ETR headquarters in Bowling Green,
Kentucky, and the Iroquois Job Corps Center (Iroquois) in Medina, New York.
Additional background information is contained in Appendix A.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the

                                                            Audit of ETR Job Corps Center Operator
                                            1                          Report No. 26-10-003-01-370
                                      U. S. Department of Labor – Office of Inspector General


audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. Our audit scope, methodology, and criteria are detailed in Appendix B.

RESULTS IN BRIEF

ETR did not always ensure compliance with Job Corps requirements for managing and
reporting financial activity in one of three areas reviewed — non-personnel expenses.
Specifically, Iroquois bypassed procurement and accounting controls through improper
use of the center’s imprest fund and did not always maintain required documentation to
support reported expenses. As a result, goods and services, such as employee moving
expenses and advertising, were not purchased in accordance with Federal Acquisition
Regulations (FAR), and ETR’s procurement policies and payments were made without
adequate assurance that the disbursed amounts were appropriate. Iroquois controls
over petty cash were also not effective as withdrawals were generally not authorized as
required.

While we did not observe any unsafe conditions at Iroquois, ETR can improve its
oversight to ensure center compliance in each of the three safety and health program
areas reviewed — safety inspections, safety committee meetings, and student
misconduct. Iroquois could not provide adequate assurance that required safety and
health inspections and committee meetings were conducted during contract
year (CY) 2008. Weekly inspections of food preparation and recreation areas were not
documented as required; monthly inspections of dormitories, health service areas,
administrative offices, and other occupied buildings were limited in scope; and monthly
safety committee meetings were not held consistently. As such, there was an increased
risk that safety and health hazards could have developed at the center that were not
identified and corrected at the earliest opportunity. For student misconduct, Iroquois
took appropriate disciplinary action but did not always report significant incidents, such
as physical assault and narcotics possession to Job Corps as required. Consequently,
this hindered Job Corps’ ability to ensure significant student misconduct was handled
appropriately to monitor center safety and to respond to negative press regarding such
incidents.

ETR also had control weaknesses in one of three areas relating to compliance with Job
Corps requirements for reporting performance — Student Attendance/Accountability.
Iroquois reported at least two students as enrolled for extended periods when the
students never actually arrived at the center and did not obtain required Job Corps
approval for extending enrollment past the two-year limit established by Job Corps.
These actions resulted in an overstatement of Iroquois’ On-Board Strength (OBS), a
measure of a center’s ability to operate at full capacity. Additionally, liquidated damages
may be assessed for not separating the students as required.

Two hotline complaint allegations pertaining to financial management and student
attendance had merit. The complainant alleged that Iroquois improperly spent $10,000


                                                        Audit of ETR Job Corps Center Operator
                                             2                     Report No. 26-10-003-01-370
                                      U. S. Department of Labor – Office of Inspector General


of Job Corps funds for a staff holiday party in Contract Year (CY) 2008. ETR improperly
charged Job Corps $7,957 for a CY 2008 staff holiday party. The complainant also
alleged that student attendance and OBS were overstated because a student never
arrived at the center yet was reported as enrolled for more than a year. As previously
noted, Iroquois reported two (2) students as enrolled when the students never actually
arrived at the center.

Several other allegations pertaining to financial reporting, student accountability, student
and staff conduct, and safety programs did not have merit.

The conditions we identified under our four objectives occurred because ETR’s controls
over center safety programs, performance reporting, and financial management need
improvement. We attributed weaknesses to inadequate center procedures, staff not
following established center procedures, and lack of training and supervision. Also,
ETR’s corporate center assessment at Iroquois did not consistently identify or address
the deficient areas discussed in this report. These control weaknesses inhibit program
accountability in these areas and could impact operational decisions made by ETR and
Job Corps.

In response to our draft report, the Interim National Director, Office of Job Corps, stated
that Job Corps will require ETR to improve corporate and center level controls over
financial management and reporting, safety and health programs, and performance
reporting. Additionally, Job Corps will determine the extent of any reimbursements owed
by ETR for the unallowable costs and performance reporting deficiencies we identified.

ETR acknowledged in its response to our draft report that deficiencies did occur in each
of the areas we reviewed and agreed to improve controls over each of these areas.
However, ETR disagreed with some of the specific deficiencies we identified. Nothing
ETR provided us caused us to change our conclusions.

Recommendations

We made nine recommendations in this report. In summary, we recommend the
National Director, Office of Job Corps, direct ETR to (1) improve corporate and center
level controls to identify and correct any non-compliance with Job Corps and ETR
financial management and reporting, safety and health program, and performance
reporting requirements, and (2) pay to DOL questioned costs relating to unsupported
imprest fund transactions and excessive holiday party costs, and liquidated damages for
any OBS overstatements, as appropriate.




                                                        Audit of ETR Job Corps Center Operator
                                             3                     Report No. 26-10-003-01-370
                                             U. S. Department of Labor – Office of Inspector General


RESULTS AND FINDINGS

Objective 1 — Did ETR ensure compliance with Job Corps requirements for
              managing and reporting financial activity?

Finding 1 — ETR did not always ensure compliance with Job Corps requirements
            for managing and reporting financial activity for one of the three
            areas reviewed — non-personnel expenses.

Based on our audit testing, as described in the scope and methodology in Appendix B,
we found ETR ensured compliance with Job Corps requirements for managing and
reporting financial activity for two of the three areas we reviewed — reporting
reimbursable expenses to Job Corps and personnel expenses. 1 However, ETR did not
always ensure compliance with Job Corps requirements for managing and reporting
financial activity for non-personnel expenses.

ETR did not ensure reported costs complied with Job Corps requirements for 9 of 40
judgmentally selected non-personnel transactions tested. Each of the nine exceptions
related to imprest fund disbursements. During CY 2008, Iroquois reported $1,800,640 in
total non-personnel expenses. Of that total the center disbursed $296,926 (16.5
percent) for Form 2110 related non-personnel expenses out of an imprest fund
established for emergency cash needs. We found that Iroquois bypassed procurement
and accounting controls by improperly using the imprest fund and did not always
maintain required documentation to support the reported expenses. As a result, goods
and services, such as employee moving expenses and advertising, were not purchased
in accordance with the Federal Acquisition Regulations (FAR), and ETR’s procurement
policies and payments were made without adequate assurance the amounts were
appropriate. Iroquois controls over petty cash for May 2009 were also not effective as
withdrawals were generally not authorized as required.

Improper Use of Imprest Fund

Iroquois purchased goods and services through its imprest fund, but did not always
comply with Job Corps requirements, the FAR, and ETR policy. 2 The center bypassed
procurement and accounting controls through improper use of the center’s imprest fund
and did not always maintain required documentation to support reported expenses. Job
Corps’ PRH (Chapter 5, Section 5.6) requires all centers to develop written procurement
procedures to comply with FAR procurement requirements. As such, ETR developed
policies as follows:


1
 Our conclusion on whether ETR ensured compliance for personnel expenses is limited to the results of
our analytical reviews and testing of internal controls for five highly paid employees. We do not conclude
on the reliability of total center personnel expenses reported to Job Corps.
2
 Iroquois’ imprest fund was not established by an advance of funds from DOL and does not meet the
definition of “imprest funds” per 20 CFR 638.200. As such, these funds are not subject to the CFR
restriction prohibiting contractor operated centers from establishing imprest funds.

                                                                  Audit of ETR Job Corps Center Operator
                                                     4
                      Report No. 26-10-003-01-370
                                     U. S. Department of Labor – Office of Inspector General


   •	 ETR corporate policy (ETR-2030.1) states that center imprest bank accounts are
      setup to establish on-site checkwriting ability for emergency cash needs, which
      cannot be anticipated in advance. In most instances, payments for goods and
      services are to be made through the accounts payable system. Iroquois center
      policy (COP-571) defines an emergency as a condition that poses an immediate
      threat to the health, safety or security of Center students/staff, or which could
      impede continuous operation.

      ETR-2030.1 authorizes ETR centers to use imprest funds for four specific types
      of disbursement when the cash needs cannot be anticipated in advance:
      (1) employee travel advances, (2) student recreation trip advances, (3) vendor
      advance payments (first time only), and (4) student clothing allowances.

   •	 ETR center policy (COP-571) require centers to obtain and document at least
      three quotes for purchases of $3,000 or more. If three quotes cannot be
      obtained, adequate documentation is to be maintained to justify the lack of
      quotes.

      Additionally the ETR policy and FAR (32.905) require centers to authorize
      payments based on adequate support for the amount to be disbursed.

We found that Iroquois bypassed ETR’s Accounts Payable system by using its imprest
fund for center purchases that were not in compliance with ETR policy for imprest fund
use. Specifically, 559, or 74.6 percent, of the 749 Form 2110 related total imprest fund
disbursements for goods and services during CY 2008 were not one of the four specific
types of disbursements authorized by ETR’s imprest fund policy. Table 1 shows, by
disbursement type, the amount and number of disbursements in and out of compliance
with ETR policy during CY 2008.




                                                       Audit of ETR Job Corps Center Operator
                                            5                     Report No. 26-10-003-01-370
                                               U. S. Department of Labor – Office of Inspector General


           Table 1: Imprest Fund Amounts and Disbursements – CY 2008
                                                              Number of 

 Authorized Disbursement Types             Amount           Disbursements 

    Employee Travel                                              $54,646                              121
    Student Recreation                                            50,338                               65
    Vendor Advance (1st time only)                                 7,000                                1
    Student Clothing Allowance                                       510                                3
                                 Subtotals                       112,494                              190

 Unauthorized Disbursement Types
   Vendor Payments*                                               87,080                              328
   Employee Advances                                              84,664                              194
   Student Advances                                               12,688                               37
                            Subtotals                            184,432                              559

                                           Totals              $296,926                               749
Source: OIG analysis based on financial data provided by Iroquois.

*The Vendor Payments disbursement type consisted of disbursements coded by Iroquois as NA (Not
Applicable), Student Testing Fees, SGA (Student Government Association), and Payline Security. All other
disbursement types were coded as noted.

    According to ETR policy, the unauthorized disbursement types should have been
    processed through ETR’s accounts payable system. As such, Iroquois bypassed ETR
    accounting controls including segregation of duties and corporate review and approval.
    Bypassing the accounts payable process increased the risk of improper or unsupported
    payments to vendors, employees, and students. See Exhibit 1 for a comparison of the
    Iroquois imprest fund and ETR accounts payable processes.

    We judgmentally selected and reviewed 26 of the 280 Iroquois imprest fund
    disbursements that exceeded $500 during CY 2008. The 26 transactions totaled
    $58,213, or 19.6 percent, of the $296,926 in total imprest fund disbursements for goods
    and services during the year. Our testing determined whether (1) claimed costs were
    supported by required documentation, (2) bids were solicited as required for purchases
    of $3,000 or more, and (3) imprest fund use was based on emergency need as defined
    by ETR policy.

    We found that Iroquois was not consistently in compliance with ETR policy, PRH, and
    the FAR. The documentation for 9 of the 26 disbursements tested did not support the
    costs claimed either in their entirety or partially. For example, an employee advance of
    $1,100 disbursed to cover expenses for a student holiday business meeting was not
    supported in its entirety with an invoice, receipt, or other documentation identifying the
    services or goods received. Another employee advance of $2,500 disbursed to cover
    the purchase of student incentives such as gift cards and phones was only partially

                                                                     Audit of ETR Job Corps Center Operator
                                                       6                        Report No. 26-10-003-01-370
                                            U. S. Department of Labor – Office of Inspector General


     supported with receipts totaling $2,048. We questioned the unsupported amount of
     $452 ($2,500-$2,048). The questioned costs for the nine disbursements totaled
     $11,228, or 19.3 percent, of the $58,213 tested. Table 2 summarizes our sampling and
     test results by disbursement type.


                 Table 2: Imprest Fund Sample and Test Results – CY 2008



Authorized                   Total               Sample Size                    Questioned
Disbursement Types       Disbursements        $ Amount / # Tested         Costs / # Disbursements

  Employee Travel                $54,646     $12,744 / 7 disbursements         $369 / 2 disbursements
  Student Recreation             $50,338      $7,400 / 4 disbursements         $100 / 1 disbursements
  Vendor Advance                  $7,000       $7,000 / 1 disbursement           $0 / 0 disbursements
  Student Clothing                 $510           $0 / 0 disbursements           $0 / 0 disbursements
            Sub-totals         $112,494    $27,144 / 12 disbursements        $469 / 3 disbursements

Unauthorized
Disbursement Types
  Vendor Payments                $87,080     $10,819 / 5 disbursements        $5,877 / 1 disbursement
  Employee Advances              $84,664     $15,900 / 8 disbursements       $4,882 / 5 disbursements
  Student Advances               $12,688       $4,350 / 1 disbursement           $0 / 0 disbursements
            Sub-totals         $184,432    $31,069 / 14 disbursements     $10,759 / 6 disbursements

                 Totals           $296,926 $58,213 / 26 disbursements     $11,228 / 9 disbursements
Source: OIG analysis based on financial data provided by Iroquois.

     We also found that each of the 26 disbursements tested were not for emergency cash
     needs as defined by ETR. For example, Iroquois used the imprest fund to pay $7,000
     for employee moving expenses. With proper planning, the center could have used the
     established accounts payable system to process the payment. The center also did not
     solicit bids or document sole source justification as required by ETR policy for three
     purchases that were $3,000 or more and FAR requirements for purchases over $3,000.
     As such, the center could not provide adequate assurance best value was received for
     the purchases. The three purchases totaled $15,877 and included the $7,000 disbursed
     for employee moving expenses, $3,000 for advertising, and $5,877 for the banquet hall
     and food for a holiday party (see Finding 4 for audit results on a hotline complaint
     related to the holiday party).

     These conditions occurred because Iroquois and corporate management did not
     emphasize compliance with ETR policy and the FAR during reviews of the center’s
     imprest fund operations. ETR’s November 2007 corporate assessment of Iroquois

                                                               Audit of ETR Job Corps Center Operator
                                                   7                      Report No. 26-10-003-01-370
                                     U. S. Department of Labor – Office of Inspector General


primarily focused on ensuring the imprest fund accounting records reconciled with the
monthly bank account statements. Imprest fund reviews to determine compliance with
ETR policy and the FAR were not included in the assessment. ETR’s September 2008
corporate assessment at Iroquois did determine that employees were receiving a large
amount of imprest fund advances for multiple purposes and recommended that imprest
check usage be minimized. However, non-compliance with the FAR and ETR policy
was not identified and the center’s response to the assessment report did not address
the recommendation to minimize use of imprest checks. Hence, corrective action was
not taken.

In response to our draft report, Job Corps will require ETR to improve its corporate and
center level controls over imprest fund disbursements and will coordinate with the
Regional Contracting Officer to determine the extent of any reimbursements resulting
from the unallowable costs we identified. Additionally, Job Corps will review the current
PRH to determine if revisions will be needed regarding the use of imprest funds.

ETR agreed that eight imprest fund disbursements we questioned (totaling $5,351)
were not adequately supported and said it will improve its corporate and center level
controls. For our 9th exception, ETR disagreed that the $5,877 claimed for a holiday
party was unallowable because a party was authorized by the Iroquois staff incentive
plan. We continue to question the holiday party costs because the FAR specifically
states that the costs of employee social activities (including entertainment, food, and
rentals) are unallowable. Additionally, the Job Corps national office told us the amount
spent for the party was excessive, and the cost should not have exceeded a few
hundred dollars.

Iroquois Petty Cash Purchases Were Not Always Properly Authorized

We reviewed Iroquois management’s use of its petty cash fund to determine whether its
use was limited to small purchases, generally under $50, as required by the FAR. Our
review of 30 of the 32 total petty cash transactions for May 2009 showed that the center
did limit its petty cash fund use to small purchases under $50. However, the center did
not consistently obtain management approval for the cash disbursements as required
by center policy.

Iroquois’ Center Operating Procedures (COP 579) required signed approval by the
departmental manager and the Administrative Services Director (ASD) for all petty cash
requests. We found 30 did not have the required ASD signature. The remaining 2 did
not require an ASD signature because they originated from the Administrative Services
department and received Center Director Approval. This occurred because ETR and
Iroquois did not place adequate emphasis on adherence to its own COP. Additionally,
Iroquois’ COP was not consistent with ETR’s corporate policy (ETR 2030), which
required only the departmental manager’s approval signature.




                                                       Audit of ETR Job Corps Center Operator
                                            8                     Report No. 26-10-003-01-370
                                     U. S. Department of Labor – Office of Inspector General


In response to our draft report, both Job Corps and ETR agreed with this finding. ETR
said the Iroquois petty cash policy was revised to ensure its corporate and center
policies were consistent.
.
Objective 2 — Did ETR ensure compliance with Job Corps requirements for
                managing safety programs?

Finding 2 — ETR did not always ensure compliance with Job Corps requirements
            at the Iroquois Center for safety in three areas — safety inspections,
            safety committee meetings, and student misconduct.

While we did not observe any unsafe conditions at Iroquois, ETR can improve its
oversight to ensure center compliance in each of the three safety and health program
areas reviewed — safety inspections, safety committee meetings, and student
misconduct.

Iroquois could not provide adequate assurance that all required safety and health
inspections and committee meetings were conducted during CY 2008. Weekly
inspections of food preparation and recreation areas were not documented as required;
monthly inspections of dormitories, health service areas, administrative offices, and
other occupied buildings were limited in scope; and monthly safety committee meetings
were not held consistently. As such, there was an increased risk that safety and health
hazards could have developed at the center that were not identified and corrected at the
earliest opportunity. For student misconduct, Iroquois did not always report significant
incidents, such as physical assault and narcotics possession to Job Corps as required.
Consequently, this hindered Job Corps’ ability to ensure significant student misconduct
was handled appropriately, monitor center safety, and respond to negative press
regarding such incidents.

These conditions occurred because ETR’s controls over these areas need
improvement. The control weaknesses included inadequate center procedures and
supervision. Additionally, ETR’s corporate oversight at Iroquois did not effectively
address the deficiencies we identified in these areas.

Iroquois Was Not In Compliance with Safety Inspection Requirements

Iroquois could not provide adequate assurance that required safety and health
inspections were conducted during CY 2008. Job Corps’ PRH requires center safety
officers to perform the following:

      •	 Conduct weekly safety and occupational health inspections of food handling
         and recreation areas;
      •	 Conduct monthly safety and occupational health inspections of dormitories,
         child development centers, health service areas, administrative offices, and
         other occupied buildings;
      •	 Correct identified deficiencies promptly; and

                                                       Audit of ETR Job Corps Center Operator
                                            9                     Report No. 26-10-003-01-370
                                     U. S. Department of Labor – Office of Inspector General


      •	 Document and maintain records of inspections and actions taken to correct
         deficiencies.

Iroquois could not provide the required documentation to support that any weekly safety
and health inspections were performed during CY 2008. Additionally, the center’s
monthly safety and health inspections were limited in scope and did not assess the
overall condition of the areas inspected. Specifically, the center’s monthly safety
inspection checklist focused only on fire-related items including whether fire exit signs
were visible and fire extinguishers were present, fully charged, and had a current
inspection tag. It did not include inspection to identify unsafe and unhealthy conditions
such as tripping and electrical hazards, structural damage or weaknesses, and trash
accumulation. These inspection weaknesses increased the likelihood that safety and
health hazards could have existed in the training, living, and working environment that
were not identified and corrected at the earliest opportunity.

These conditions occurred, in part, because ETR center and corporate management did
not provide adequate monitoring and supervision to ensure inspections were performed
and documented as required. Iroquois had not established COP for conducting safety
inspections and center management did not provide the supervision to ensure
compliance. Additionally, ETR’s November 2007 corporate center assessment at
Iroquois did not identify the inspection weaknesses. ETR said they became aware that
inspections were not documented at Iroquois as required from a independent
contractor’s January 2009 Annual Safety and Health Review. However, ETR told us that
all the required weekly inspections had been performed at the center during CY 2008.
Also, we verified the weekly inspections were documented for February through April
2009. They said the lack of documentation occurred because the center staff
performing the inspections was new to the position and not fully trained.

ETR agreed with the importance for Iroquois to have effective controls in place to
ensure all required inspections were performed and documented. As such, the center
took some corrective action by developing COP for center safety inspections, including
a new checklist for performing weekly inspections and more comprehensive monthly
safety inspections. ETR also told us that a corporate safety officer position will be
created to provide training and corporate oversight.

Monthly Safety Committee Meetings Not Held Consistently

Iroquois could not provide adequate assurance that required safety and health
committee meetings were conducted. PRH Chapter 5, Appendix 505, IV.A.1-3 & D,
requires centers to establish a Safety and Health Committee to:

      •	 Review reported accidents, injuries, and illnesses;
      •	 Consider the adequacy of actions to prevent recurrence of such accidents,
         injuries, or illnesses;
      •	 Plan, promote, and implement DOL and Job Corps safety and occupational
         health programs; and

                                                       Audit of ETR Job Corps Center Operator
                                           10                     Report No. 26-10-003-01-370
                                        U. S. Department of Labor – Office of Inspector General


       •    Meet monthly and maintain records of the minutes for at least three years.

Iroquois did not conduct monthly safety committee meetings for 3 of the 12 months in
CY 2008. The lack of consistent monthly safety committee meetings further limited the
center’s ability to correct potential safety concerns in a timely manner. This occurred
because ETR corporate and center management did not provide adequate monitoring
to ensure the committee meetings were held and documented as required. Similar to
the control weaknesses related to safety inspections, Iroquois had not established COP
for conducting safety committee meetings, and center and corporate management did
not provide the supervision and oversight to ensure compliance. ETR agreed and is
developing new COP for conducting and documenting safety committee meetings.

Regular Safety and Health Committee meetings, along with consistent inspections, will
increase the center’s ability to identify and correct safety and health concerns at the
earliest opportunity. In the absence of regular safety committee meetings, ETR cannot
provide adequate assurance that its centers’ safety and health programs are working
effectively to protect its staff and Job Corps students.

Significant Incidents of Student Misconduct Were Not Reported to Job Corps

Iroquois did not take appropriate actions to ensure all significant incidents of student
misconduct were reported to Job Corps. The PRH requires centers to report all
significant incidents to Job Corps, including:

       •	   Physical assault;
       •	   Indication that a student is a danger to himself/herself or others;
       •	   Theft or damage to center, staff, or student property;
       •	   Incident requiring police involvement;
       •	   Incident involving illegal activity; and
       •	   Incident attracting potentially negative media attention.

We reviewed 38 Level I disciplinary infractions recorded by Iroquois during CY 2008. Of
the 38 Level I disciplinary infractions, we identified 18 significant incidents that were
reportable to Job Corps (reporting positive drug tests is not required). Of these 18
significant incidents, we found that five were not reported to Job Corps as required. The
five significant incidents included one physical assault that caused bodily harm, one
physical assault with intent to cause bodily harm and damage to center property, and
three possession of drugs with intent to sell (illegal activities).

Iroquois took appropriate disciplinary action by separating each of the five students.
However, underreporting of significant incidents impacts Job Corps’ ability to:

   •	 adequately provide data for analysis of trends to inform management and policy
      decisions;
   •	 allow the National and Regional Offices to monitor compliance with policy and
      regulations regarding serious incidents;

                                                          Audit of ETR Job Corps Center Operator
                                              11                     Report No. 26-10-003-01-370
                                     U. S. Department of Labor – Office of Inspector General


   •	 respond to the press regarding serious incidents; and
   •	 ensure the centers take appropriate action regarding the incidents being 

      reported. 


Iroquois’ underreporting of significant incidents occurred because center management
did not provide the oversight needed to ensure compliance with Job Corps’ reporting
requirements. Although Iroquois had adequate COP for reporting significant incidents to
Job Corps, center management reviews of this area did not identify the deficiencies.
Furthermore, the deficiencies occurred despite the fact that ETR’s November 2007
center assessment at Iroquois noted significant incident reporting as a problem area. In
response to the center assessment, Iroquois committed to reporting all significant
incidents within 24 hours of the incident. Our testing showed that this did not occur.

In addition, we reviewed 24 students to determine if the center met the PRH
requirements of providing basic health evaluation — to include drug screening upon
enrolling students. Our review of drug screening disclosed no exceptions or control
weaknesses.

In response to our draft report, Job Corps will require ETR to improve its controls over
its center safety programs; including safety inspections and safety committee meetings.

ETR agreed with our audit results in this area. According to ETR management, a
corporate manager has been assigned responsibility for providing oversight and
ensuring compliance with Job Corps requirements.

Objective 3 — Did ETR ensure compliance with Job Corps requirements for
              reporting performance?

Finding 3 — ETR had control weaknesses in one of three areas relating to
            compliance with Job Corps requirements for reporting performance
            — Student Attendance/Accountability.

Based on our audit testing, as described in the scope and methodology in Appendix B,
we found ETR ensured compliance with Job Corps requirements for reporting
performance activity for two of the three areas we reviewed — career technical training
(CTT) completions and General Educational Development certificate/high school
diploma (GED/HSD) attainment. However, ETR did not always ensure compliance with
Job Corps requirements for student attendance/accountability. Iroquois reported two
students as enrolled for extended periods when the students never actually arrived at
the center; and did not obtain required Job Corps approval for extending enrollment for
two students who exceeded the two-year limit established by Job Corps. These actions
overstated Iroquois’ OBS, a measure of a center’s ability to operate at full capacity.
Additionally, liquidated damages may be assessed for not separating the students as
required.




                                                       Audit of ETR Job Corps Center Operator
                                           12                     Report No. 26-10-003-01-370
                                     U. S. Department of Labor – Office of Inspector General


These conditions occurred because Iroquois controls over student arrivals and
enrollment extensions needed improvement. The control weaknesses included
inadequate center procedures, staff not following established center procedures, and
lack of supervision. Additionally, ETR’s corporate oversight at Iroquois did not address
the deficiencies we identified in this area.

Students Were Not Separated For Attendance Violations

ETR did not ensure consistent compliance with Job Corps PRH requirements to
separate students for attendance violations in two areas:

   •   Improper enrollment; and
   •   Exceeding two years of enrollment without Job Corps approval for an extension.

Students Improperly Enrolled

Job Corps’ PRH (Chapter 6.4, Section R1) requires centers to accept for enrollment
students who report to the center. Students who do not reach the center are not
considered arrivals. Additionally, Job Corps Information Notice Number 04-13
(Attachment Section C.1.) requires Job Corps Regional Director approval for data
corrections relating to enrollment in error for students who never arrived on center.

Iroquois enrolled two students who never arrived on center. Iroquois reported the two
students in Job Corps’ Center Information System (CIS) as enrolled for 428 days and
153 days, respectively. We identified one student based on information provided by a
hotline complainant (see Finding 4) and the other student based on information
provided by a center official. The untimely separations resulted in 581 days (428 + 153)
of overstated student enrollment. Since the CIS calculates OBS based on enrollment
days, Iroquois’ OBS was also overstated.

Iroquois management agreed that enrollment data was improperly reported. They said
the improper reporting occurred because the center enrolled students based on their
expected arrival rather than their actual arrival. We agreed that Iroquois’ arrival
practices were inadequate and determined that COP had not been developed to provide
center staff with appropriate guidance for processing arriving students. During our audit,
Iroquois developed and implemented COP for student arrivals to ensure enrollment was
based on verification that each expected student actually arrived at the center.

Approvals for Extending Enrollment Not Consistently Obtained

Job Corps’ PRH (Chapter 6.4, Section R3b) limits student enrollment to two years,
unless the center obtains regional office approval to extend the student up to six months
so the student can qualify for graduation.

We reviewed the enrollment records for the eight students at Iroquois whose enrollment
exceeded two years during CY 2008. We found that Iroquois did not obtain the required


                                                       Audit of ETR Job Corps Center Operator
                                            13                    Report No. 26-10-003-01-370
                                              U. S. Department of Labor – Office of Inspector General


  extension approval for two students, or 25 percent. As such, the two students should
  have been separated when they reached the two year limit. The two students exceeded
  their authorized enrollment by a total of 50 days. Again, since the CIS calculates OBS
  based on enrollment days, Iroquois’ OBS was overstated.

  Iroquois management said the center requested approval from Job Corps to extend the
  enrollment for both students while they completed their educational training. However,
  the center could not provide documentation that the requests were made and approved
  by the regional office, and the regional office told us they had not received the requests.

  This occurred because center staff did not follow PRH requirements, and center data
  integrity reviews and ETR’s November 2007 center assessment did not cover this area.

  Liquidated Damages May Be Assessed

  Inaccurate reporting of center enrollment and OBS impacts Job Corps and ETR
  decision making. Job Corps’ PRH (Chapter 5.1, Section R2) stipulates the assessment
  of liquidated damages for instances of misreporting data. For artificially extending
  enrollment, the amount of liquidated damages for each day exceeding the appropriate
  separation date is calculated using 15 percent of the refundable cost per student per
  day, which was $10.24 per day for Iroquois. The PRH allows Job Corps discretion when
  assessing liquidated damages. As such, ETR may owe DOL $5,193 for the four
  students not separated as required. The PRH violations and our liquidated damages
  calculation for the four students with separation violations are summarized in Table 3
  below.

              Table 3: Four Students Were Not Separated as Required
                                 Number of Students       Liquidated Damages
PRH Violation                     (Days in Violation) (Number of Days x $10.24)
Improper enrollment for students
that never arrived on center.                        2 (457 days*)                                  $4,680
Approval not obtained for
students exceeding 2 years
enrollment.                                             2 (50 days)                                   $513

Totals                                                4 (507 days)                           $5,193.00
  *The two students were improperly enrolled a total of 581 days (428 + 153 days). However, we did not
  include 124 days in our calculation because Iroquois immediately contacted Job Corps to resolve the
  issue for the student improperly enrolled for 428 days, but did not act on a Job Corps data center request
  to obtain Regional Director approval to remove the student from the CIS on the 124th day of improper
  enrollment. As such, we only included 304 days for this student in our calculation of liquidated damages
  (304 + 153 = 457 days).

  In response to our draft report, Job Corps will require ETR to improve its controls over
  separating students due to improper enrollment and exceeding the 2-year enrollment


                                                                   Audit of ETR Job Corps Center Operator
                                                      14                      Report No. 26-10-003-01-370
                                      U. S. Department of Labor – Office of Inspector General


limit. Additionally, Job Corps will determine the extent of any overstated OBS at all ETR
centers (including Iroquois) and assess liquidated damages as needed.

ETR agreed with the deficiencies we identified in this area. However, ETR believes
liquidated damages are not warranted because OBS was not significantly overstated.

Objective 4 — Did the hotline complaints alleging improper practices pertaining to
              financial reporting, student accountability, student and staff
              conduct, and safety programs at the Iroquois Job Corps Center
              have merit?

Finding 4 — Two of 18 hotline complaint allegations had merit.

The allegations that Iroquois improperly spent $10,000 of Job Corps funds for a holiday
staff party, and overstated student attendance and OBS by reporting a student who
never arrived at the center as enrolled for more than a year had merit. We did not
substantiate the remaining 16 allegations.

Iroquois Improperly Spent Job Corps Funds for a Holiday Staff Party

The allegation that $10,000 of Job Corps funds was improperly spent on a 2008 Holiday
staff party had merit. The FAR and ETR policy prohibited the center from using DOL
funds as follows:

    •	 Federal Acquisition Regulation 31.205-14 states “Costs of amusement,
       diversions, social activities, and any directly associated costs such as tickets to
       shows or sports events, meals, lodging, rentals, transportation, and gratuities
       are unallowable. Costs made specifically unallowable under this cost principle
       are not allowable under any other cost principle.

    •	 ETR Cost Policy states that ETR recognizes the cost of entertainment and other
       costs that may be prohibited by 48 CFR Part 31 Contract Cost Principles and
       Procedures, or other applicable regulations are unallowable charges. ETR has
       internal controls in place to insure that such costs are not charged directly or
       allocated.

Iroquois did not comply with the Federal regulations and its own policy. Specifically, the
center improperly charged Job Corps $7,957 for its 2008 staff holiday party. The
improper charges included $5,877 for a banquet hall and food; $1,367 for party items
and gift sets; $375 for a disc jockey; and $338 for holiday envelopes, frames, and
personalized holders. Charging these items to Job Corps was unallowable because the
party was a social activity and included specifically prohibited costs (banquet hall rental,
meals, and entertainment). Iroquois also improperly charged Job Corps for holiday
parties in CY 2005 ($4,992) and CY 2006 ($4,458). The improper charges for the three
years totaled $17,407. The center did not have a holiday party in CY 2007.



                                                        Audit of ETR Job Corps Center Operator
                                             15                    Report No. 26-10-003-01-370
                                           U. S. Department of Labor – Office of Inspector General


ETR acknowledged that the food portion of the claimed costs for the holiday parties was
not allowable and that the food was claimed by mistake. They told us that they believed
that the remaining costs for the parties were allowable because Job Corps approved the
center’s staff incentive plan, which stated that a holiday party was allowed as a staff
incentive. We disagree that the costs were allowable as an incentive for the following
reasons:

    •	 The FAR (31.205-6(f)(1)(ii)) states that incentive compensation to employees is
       allowable provided the basis for the award is supported. The Iroquois incentive
       plan simply stated that a holiday party was allowed to encourage high staff moral.
       Moreover, the incentive plan did not specify the amount to be spent based on
       any level of performance. We believe ETR should have obtained approval for the
       parties’ planned costs from Job Corps.

    •	 The Job Corps national office told us the amount spent for the party was
       excessive, and the cost should not have exceeded a few hundred dollars. The
       national office said that it is unusual to have holiday parties authorized through
       an incentive plan; and contractors that have parties usually pay for them out of
       their contract fee.

The OIG acknowledges that the approved incentive plan was a contributing factor in
ETR’s decisions to have the holiday parties and charge them to Job Corps. However,
Iroquois unilaterally determined the amount to be spent on the holiday parties and
charged those amounts to Job Corps. As such, we believe Job Corps should determine
the appropriate portion of the $17,407 spent during CYs 2005, 2006, and 2008 and
require ETR to reimburse any excessive amounts. 3 To avoid similar situations in the
future, Job Corps needs to clarify its policy regarding the inclusion of holiday parties in
contractor incentive plans.

A Student Never Arrived at the Center Was Reported as Enrolled for More Than a Year

The allegation that Iroquois overstated student attendance and OBS by reporting a
student who never arrived at the center as enrolled for more than a year had merit. The
complainant provided us with the name of the student, and we verified that the student
was reported as enrolled at the center from November 30, 2006 to February 15, 2008,
or approximately one year and three months. As such, Iroquois did not comply with Job
Corps’ PRH (Chapter 6.4, Section R1), which states that students who do not reach the
center are not considered arrivals.

Iroquois became aware of the improper enrollment in November 2006 and contacted
Job Corps to resolve the issue. However, the center did not act on a Job Corps data
center request to obtain the Regional Director’s approval to remove the student from the
CIS on the 124th day of improper enrollment. The student continued to be improperly
enrolled for an additional 304 days. The untimely separation resulted in 428 days of
3
 We identified $5,877 of the $17,407 as questioned costs in our Finding 1 discussion of unsupported
imprest fund disbursements.

                                                                Audit of ETR Job Corps Center Operator
                                                   16                      Report No. 26-10-003-01-370
                                     U. S. Department of Labor – Office of Inspector General


overstated student enrollment. Since the CIS calculates OBS based on enrollment days,
Iroquois’ OBS was also overstated. See Finding 3, which calculates liquidated damages
associated with this improper enrollment separation.

Sixteen Allegations Did Not Have Merit

We performed audit work to determine the merit of 16 other allegations. We found no
evidence that Iroquois or ETR engaged in the 16 alleged improper practices. The 16
allegations are detailed in Exhibit 3. Our methodology for validating the merit of the
complaint allegations is summarized in Appendix B.

In response to our draft report, Job Corps will determine the extent of any
reimbursements due to improper or excessive holiday party costs or overstated OBS.
Job Corps will also revise its policy as needed to ensure claimed holiday party costs are
appropriate. As noted, ETR believes the holiday party costs were allowable because of
the Iroquois staff incentive plan. ETR acknowledged that two students were improperly
enrolled and developed procedures to ensure enrollments are based on actual student
arrivals.

RECOMMENDATIONS

We recommend that the National Director, Office of Job Corps require ETR to:

   1. Implement corporate and center controls to identify and correct non-compliance
      with ETR policy and the FAR for imprest fund disbursements.

   2. Pay DOL the $11,228 in questioned costs identified during testing of Iroquois
      imprest fund disbursements.

   3. Implement corporate and center controls to identify and correct non-compliance
      with ETR policy for petty cash disbursements.

   4. Implement corporate and center controls to identify and correct non-compliance
      with Job Corps safety and health program requirements, including safety
      inspections, safety committee meetings, and significant incident reporting.

   5. Implement corporate and center controls to identify and correct non-compliance
      with Job Corps requirements for separating students due to ineligible enrollment
      and exceeding the 2-year enrollment limit without Job Corps approval.

Also, we recommend that the National Director:

   6. Implement policy and procedures to ensure imprest funds are used appropriately
      at all Job Corps centers.




                                                       Audit of ETR Job Corps Center Operator
                                           17                     Report No. 26-10-003-01-370
                                     U. S. Department of Labor – Office of Inspector General


   7. Determine whether ETR incurred holiday party costs at each of its centers and
      require ETR to pay DOL for any improper or excessive costs charged to Job
      Corps. This includes the excessive portion of the holiday party costs incurred at
      Iroquois during CYs 2005, 2006, and 2008, which we consider to be questioned
      costs. These questioned costs totaled $11,530 (plus an additional $5,877 already
      included in Recommendation 2).

   8. Determine whether non-compliance with Job Corps requirements for separating
      students due to improper enrollment and exceeding the 2-year enrollment limit is
      occurring at other ETR centers and recover liquidated damages as appropriate.
      This includes the $5,193 in liquidated damages for not separating students as
      required at Iroquois.

   9. Develop policy and procedures to clarify or eliminate the inclusion of holiday
      parties in contractor incentive plans.

We appreciate the cooperation and courtesies that Job Corps and ETR personnel
extended to the Office of Inspector General during the audit. OIG personnel who made
major contributions to this report are listed in Appendix E.




Elliot P. Lewis
Assistant Inspector General
  for Audit




                                                       Audit of ETR Job Corps Center Operator
                                           18                     Report No. 26-10-003-01-370
             U. S. Department of Labor – Office of Inspector General




Exhibits 





                               Audit of ETR Job Corps Center Operator
                   19                     Report No. 26-10-003-01-370
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                           Audit of ETR Job Corps Center Operator
               20                     Report No. 26-10-003-01-370
                                    U. S. Department of Labor – Office of Inspector General


                                                                                 Exhibit 1
Iroquois Center Procurement Procedures Comparison
COP 571 Accounts Payable (A/P) Process and SOP 2030.1 Imprest Fund Process

Procurement Standard/Procedure                                             Imprest
                                                               A/P          Fund
                                                             Process       Process
                                                             COP 571      ETR 2030.1
Purchase Request Required                                      Yes           No
Purchase Order Required                                        Yes           No
Procurement Source Priority Rules                              Yes           No
Price Quotations/Bid Procedures                                Yes           No
Special Purchases/Conditions Provisions                        Yes           No
Sole Source Provisioning Rules                                 Yes           No
Emergency Purchase Provisions for Expedited                    Yes           Yes
Transactions
Approved Purchasing Methods                                     Yes            No
Purchase Order Procedures                                       Yes            No
Blanket Purchase Agreements                                     Yes            No
Invoice Processing                                              Yes            No
Change Order Procedures                                         Yes            No
Receiving Procedures                                            Yes            No
Documentation/Filing Description                                Yes            No
Vendor Compliance                                               Yes            No


Key Personnel Involvement                                     Center      Corporate
                                                             COP 571      ETR 2030.1
Purchase Initiator/Requestor                                   Yes           Yes
Supervisor Approval of transaction                             Yes           Yes
Purchasing Agent approves transaction and determines           Yes           No
appropriate means for procurement
Accounts Payable Manager processes payment on                   Yes            No
invoice
Receiving Manager verifies and logs in receipt of goods         Yes            No
Director of Administrative Services approves transaction        Yes            Yes
Center Director (where applicable) approves transaction         Yes            Yes
ETR Corporate approves each transaction                         Yes            No




                                                      Audit of ETR Job Corps Center Operator
                                          21                     Report No. 26-10-003-01-370
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                           Audit of ETR Job Corps Center Operator
               22                     Report No. 26-10-003-01-370
                                     U. S. Department of Labor – Office of Inspector General



                                                                                  Exhibit 2
Summary of Allegations that Were Not Substantiated

The 16 hotline complaint allegations that were not substantiated during the audit were
as follows:

   1.  "Questionable" drug screening results.
   2.  Center Log for dispensing over-the-counter medications is not in compliance.
   3.  Students not sent home/arrested for drug possession.
   4.  Sewer System concern: effluent backs up in Academic Department’s student
       restroom on "continual basis" with sewage flowing into academic hallway.
   5. Sewer System concern: constant odor of sewage adjacent to cafeteria building
       entrance.
   6. ETR continued to operate classes in a building that was cited as unsafe by the
       Health Dept.
   7. Vermin (mice) infestation in dorm.
   8. The academic classrooms are "infested" with mildew due to poor drainage 

       adjacent to the building, which resulted in flooding in classrooms. 

   9. Time card altered. 

   10. Time card was forged. 

   11. Overtime (earned) was not paid. "All staff" meetings, Dorm meetings, and safety 

       department working through lunch were not allowed overtime, but were added
       responsibilities that required working overtime.
   12. Student completions and separations were manipulated to "manage" monthly
       performance statistics. Completions (were recorded) before all services have
       been provided, completions (were recorded) months after completion of all
       services, and holding students in a leave status when separated due to
       disciplinary action.
   13. OBS on the morning report and number of active students on the Active Student
       Roster do not match.
   14. Students from Rochester allegedly were enrolled and only came on center to
       take the TABE test. Students were not participating in academic or trade courses
       on center. Students enrolled, but not present on center.
   15. HS equivalency diploma and GED data results were entered into CIS before hard
       copy transcript actually arrived on center violating PRH rules.
   16. Instructors were charged monetary damages for incomplete or incorrect TARs.




                                                       Audit of ETR Job Corps Center Operator
                                           23                     Report No. 26-10-003-01-370
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                           Audit of ETR Job Corps Center Operator
               24                     Report No. 26-10-003-01-370
               U. S. Department of Labor – Office of Inspector General




Appendices 





                                 Audit of ETR Job Corps Center Operator
                     25                     Report No. 26-10-003-01-370
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                           Audit of ETR Job Corps Center Operator
               26                     Report No. 26-10-003-01-370
                                         U. S. Department of Labor – Office of Inspector General


                                                                                     Appendix A
Background

Job Corps is authorized by Title I-C of the Workforce Investment Act (WIA) of 1998 and
is administered by the Department of Labor, Office of the Secretary, Office of Job
Corps, under the leadership of the National Director, supported by a National Office
staff and a field network of Regional Offices of Job Corps.

The purpose of Job Corps is to assist people ages 16 through 24 who need and can
benefit from a comprehensive program, operated primarily in the residential setting of a
Job Corps Center (JCC), to become more responsible, employable, and productive
citizens.

As a national, primarily residential, training program, Job Corps' mission is to attract
eligible young adults, teach them the skills they need to become employable and
independent, and place them in meaningful jobs or further education.

Education, training, and support services are provided to students at Job Corps center
campuses located throughout the United States and Puerto Rico. Job Corps Centers
are operated for the U.S. Department of Labor by private companies through
competitive contracting processes, and by other Federal Agencies through inter-agency
agreements.

The WIA legislation authorizing Job Corps requires the Secretary of Labor to provide a
level of review of contractors and service providers over a 3-year period. The Code of
Federal Regulations states all Job Corps centers are to be reviewed over the 3-year
period.

ETR headquarters is located in Bowling Green, Kentucky. ETR operates 4 Job Corps
centers under contract with DOL (Iroquois in Medina, New York; Turner in Albany,
Georgia; Hartford, in Hartford, Connecticut 4 ; and Oneonta in Oneonta, New York).




4
 During the audit period, January 2008 through December 2008, ETR operated 3 centers. However, on
January 12, 2010, ETR officials explained they were awarded a contract for the Hartford center.

                                                             Audit of ETR Job Corps Center Operator
                                                27                      Report No. 26-10-003-01-370
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                           Audit of ETR Job Corps Center Operator
               28                     Report No. 26-10-003-01-370
                                     U. S. Department of Labor – Office of Inspector General


                                                                              Appendix B
Objectives, Scope, Methodology, and Criteria

Objectives

Our audit objectives were to answer the following questions:

   1. Did ETR ensure compliance with Job Corps requirements for managing and
      reporting financial activity?

   2. Did ETR ensure compliance with Job Corps requirements for managing center
      safety programs?

   3. Did ETR ensure compliance with Job Corps requirements for reporting 

      performance? 


   4. Did the hotline complaint alleging improper practices pertaining to financial
      reporting, student accountability, student and staff conduct, and safety programs
      at the Iroquois Job Corps Center have merit?

Scope

This report reflects the audit work conducted at ETR headquarters in Bowling Green,
Kentucky and the ETR-operated Iroquois Job Corps center in Medina, New York —
except where noted. We reviewed center financial, safety, and performance data for
students who separated during Contract Year (CY) 2008. We also reviewed center
financial, safety, and performance data outside this timeframe. Specifically, we reviewed
the CY 2007 Employment and Training Administration Form 2110, Job Corps Contract
Center Financial Report’s operating expenses; ETR’s November 2007 corporate
assessment; 2005 & 2006 holiday party expenses; May 2009 petty cash expenses;
January 2009 Annual Safety and Health review; and February through April 2009
weekly safety inspections. The evidence reviewed were hard copy files, and electronic
files maintained at ETR headquarters and the Iroquois center.

The relationship between the population and the items tested and the kinds and sources
of evidence are fully described in the Methodology section below.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.




                                                       Audit of ETR Job Corps Center Operator
                                           29                     Report No. 26-10-003-01-370
                                      U. S. Department of Labor – Office of Inspector General


Methodology

To accomplish our audit objectives, we obtained an understanding of applicable laws,
regulations and Job Corps policies and procedures. We also obtained an understanding
of ETR’s processes, policies, and procedures for managing center safety and reporting
financial and performance information to Job Corps. We interviewed ETR’s corporate
officials at ETR’s headquarters in Bowling Green, Kentucky, and conducted interviews
with various officials at the Iroquois Job Corps center field site.

At the headquarters, we performed walkthroughs of ETR’s corporate processes and
identified and evaluated ETR’s internal controls over center safety and performance and
financial reporting. We assessed risks related to financial and performance
misstatement and evaluated ETR’s overall control environment.

We selected the Iroquois center location for detailed testing of center safety and
financial and performance data based on a risk assessment. We considered a number
of variables, including size of operations, prior audit findings, and OIG and Job Corps
management concerns on a hotline complaint we received in January 2009. We
assessed the reliability of related data for the applicable audit period and determined
that the data was sufficiently reliable to accomplish our audit objectives. We used a
combination of statistical and judgmental sampling to select the items tested at this
center. Judgmentally selected items, which cannot be projected to the intended
population(s) were chosen based on a number of factors, including known deficiencies
(i.e., related audit concerns identified in prior OIG, DOL, ETR, and consultant reports),
inquiries of and information provided by Job Corps, ETR and center personnel; and the
nature of certain transactions (e.g., high dollar value, susceptibility to theft or
manipulation). Our methodology for the center is described as follows:

Financial Reporting

We interviewed key ETR and center officials and staff, reviewed applicable policies and
procedures, analyzed prior audit and consultant reports, reviewed corrective actions
taken by ETR on regional assessment reports, and performed a walkthrough of selected
transactions to gain a better understanding of the center’s system for financial reporting.

For non-personnel expenses, we reviewed a judgmental sample of 17 transactions
chosen from the Iroquois CY 2008 check register. The sample included 14 expenses
processed using ETR’s accounts payable system and 3 expenses paid using the
center’s imprest fund. The sample population was chosen based on the following
criteria: payments that exceeded $1,700, payments that appeared to be paid to unusual
vendors, payments for items that appeared to be attractive, payments that appeared to
be for unallowable expenses, and payments that appeared to be unusual in nature. We
determined if the expenses reported were allowable, reasonable, allocable, supported,
properly bid, and had proper approval documentation. This review included tracing the
expenses to the general ledger. Based on the results of this initial testing, we expanded
our testing to include a judgmental sample of 26 of the 280 imprest fund transactions


                                                        Audit of ETR Job Corps Center Operator
                                            30                     Report No. 26-10-003-01-370
                                     U. S. Department of Labor – Office of Inspector General


that exceeded $500 during CY 2008. Our testing included 40 (14 accounts payable plus
26 imprest fund) non-personnel expense transactions totaling $122,325 (6.8%) out of
the $1,800,640 non-personnel expenses disbursed. The results of our test relate only to
the tested transactions and cannot be used to conclude on overall non-personnel
expenses.

For personnel expenses, we performed analytical reviews of payroll expenditures and
judgmentally selected and reviewed payroll records for 5 of 119 center employees. The
sample of 5 employees was selected based on a high-risk assessment for overtime pay,
the highest-paid center officials, and employees not listed on the given employee roster.
The review was to determine if expenditures were for actual and allowable work done
by valid employees at their authorized rates. This included tracing the selected
expenditures to authorized timesheets, leave, and pay rates. The results of our test
relate only to the tested transactions and cannot be used to conclude on overall
personnel expenses.

To determine compliance with PRH requirements for reporting reimbursable expenses
we examined the monthly Form 2110 reporting reimbursable expenses and the bi-
weekly Form 1034 vouchers requesting reimbursement for center expenses for Contract
Year (CY) 2008. We then used a Job Corps-provided reconciliation spreadsheet
(required by Job Corps for all centers to use) to verify reported expenses reconciled to
the vouchers. Furthermore, we compared CY 2007 to CY 2008 2110 monthly operating
expenses to identify variances, and reviewed significant variances to determine whether
the variances were reasonable. In addition, we compared a judgmental sample of
CY 2008 monthly operating expenses to the amounts reported in the general ledger to
ensure expenses were accurate.

Safety and Health

To gain a better understanding of the center’s safety and health program, we
interviewed key ETR and center officials and staff, reviewed applicable policies and
procedures, performed walkthroughs, and conducted a physical review of the center’s
facilities. We also evaluated the results of corporate and DOL regional office
assessments of center safety and health processes, Safety and Occupational Health
Committee meeting minutes, inspection reports, and center buildings to determine
whether the center effectively identified and corrected safety and health deficiencies.
We also performed physical inspections to ensure there were no apparent facility safety
and health issues, and to ensure that problems identified by center, corporate, and DOL
reviews were corrected.

For our center inspection report review, we selected a judgmental sample of 37 monthly
inspections from a population of 372 monthly inspections. (i.e., 31 buildings x 12 per CY
= 372). The judgmental sample of 37 was selected using the first monthly inspection in
the CY 2008 inspection binder and then every 10th inspection after that.




                                                       Audit of ETR Job Corps Center Operator
                                           31                     Report No. 26-10-003-01-370
                                      U. S. Department of Labor – Office of Inspector General


In addition, we reviewed the 12 months of CY 2008 safety committee meeting minutes
to determine whether the center conducted monthly safety committee meetings.

We also non-statistically selected students from the separation analysis report and
reviewed student files for students who separated from the center because of
disciplinary infractions during CY 2008 (i.e., 20 of 96 or 38 Level I and 58 Level II
disciplinary separations at Iroquois). The review was to determine if the center met the
PRH requirements for convening fact finding boards or behavior review panels and
reporting for significant incidents. To accomplish this, we reviewed the student files and
disciplinary files to identify infractions committed by the students and compared the
actions the center took regarding the infractions to the requirements for convening
boards and panels (i.e., 20 students or 5 Level I and 15 Level II judgmentally selected
from 96 disciplinary separations.) We also compared the Level I disciplinary
separations to the students reported on the Significant Incident Report (SIR) to
determine if they met PRH requirements. Specifically, we reviewed 18 of 38 Level I
disciplinary separations requiring an SIR, for which we checked to see if an SIR had
been written and forwarded to Job Corps; 20 did not since they were for drug testing
positive a second time.

In addition, we used non-statistical sampling to review files for students who enrolled at
the center during CY 2008 to determine if the center met the PRH requirements of
providing basic health evaluation — to include drug screening upon enrolling students,
making sure students receive physicals within 14 days of being on center. To
accomplish this, we reviewed appropriate medical forms in each selected student’s
medical file (24 students judgmentally selected from a population of 421 students at
Iroquois) and compared the forms to the applicable PRH requirements. Specifically, of
the 24, 18 (1st sample) were selected as follows: judgmental sample of 15 was selected
by taking every 18th arrived at by dividing the population of 421 by 15. The other 3
students were selected judgmentally as they were named on a complainant statement
and were added to the 15 to get 18. The remaining 6 (2nd sample) selected represented
all students who tested positive upon arrival and were required to be tested by the
center and disciplinary separated had they tested positive a second time in accordance
with JC requirements.

Performance Reporting

We interviewed key ETR and center officials and staff, reviewed applicable policies and
procedures, reviewed prior audit and consultant reports, and performed walkthroughs to
gain a better understanding of the center’s system for collecting, recording, processing,
and reporting performance data. We reviewed corrective actions taken by ETR for
instances noted on regional assessment reports. We used a combination of statistical
and non-statistical sampling to examine performance reporting.

To determine if reported Career Technical Training (CTT) completers had supporting
Training Achievement Record (TAR) documentation in compliance with PRH
requirements, we reviewed a statistical sample of 30 out of the 224 students reported by


                                                        Audit of ETR Job Corps Center Operator
                                            32                     Report No. 26-10-003-01-370
                                      U. S. Department of Labor – Office of Inspector General


Iroquois as CTT completers. Also, we reviewed a judgmental sample of 15 students
who were reported on the Data Integrity Group Report as being high-risk completers. In
total, these 45 out of the 224 students ETR had reported as CTT completers at Iroquois
were reviewed.

We reviewed each student TAR for a number of attributes, including tasks not
documented as having been completed (that is, lacked required instructor/student sign-
offs, completion dates, proficient performance ratings); task completion dates that
coincide with holidays, weekends, student leave dates, and dates not in trade; tasks
excluded without proper approval; and the reasonableness of time noted to complete
tasks.

To determine if controls over student leave and attendance were in place, we reviewed 25
student records from a population of 421 students enrolled in CY 2008 who had 7 or more
leave days prior to their separation. We identified students on leave as reported on the
student profile — Center Information System (CIS) Form 640. We calculated leave days
taken over the designated limit identified for each status listed in the PRH (Exhibit 6-1) and
assessed whether there were patterns of leave taken, such as unpaid leave followed by
paid leave followed by AWOL status, before separation from the center. We reviewed
student records to identify (1) whether a student placed on leave had a leave request form
completed, and (2) whether student leave request forms located in student records had
proper signature approvals or authorizations consistent with the leave status type as
required by the PRH (Exhibit 6-1). We also used this sample to determine if attempts were
made to contact AWOL students. We did this by reviewing student records to determine
whether counselor case note documentation was present for each incident an AWOL was
reported on the CIS Form 640.

To determine if students reported as GED/HSD completers were accurately reported,
we statistically sampled students claimed as earning GED certificates and High School
Diplomas during CY 2008. To verify GED/HSD attainment, we reviewed each student
file for copies of certificates/diplomas and score reports/transcripts.

Hotline Complaints

We received 18 hotline complaint allegations alleging improper practices relating to ETR
student/staff misconduct, center safety and health, managing and reporting financial
activity, student attendance/accountability, CTT completions, high school diploma and
GED attainment, improper staff separation, and center manager misconduct. We
performed the following to determine whether the allegations were valid:

Student/staff Misconduct – we conducted interviews with the complainants and
requested evidence to corroborate allegations. We interviewed Iroquois officials to gain
an understanding of the Center’s practices regarding drug screening and possession.
We reviewed Iroquois’ COP for consistency with the PRH. We observed the Iroquois
drug testing process and completed testing procedures to determine if drug screening



                                                        Audit of ETR Job Corps Center Operator
                                            33                     Report No. 26-10-003-01-370
                                     U. S. Department of Labor – Office of Inspector General


was in compliance with PRH and COP requirements, and reviewed police reports to
confirm students were cited for drug possession.

Center Safety and Health – Center management officials explained how over-the-
counter (OTC) medications are dispensed, and verified medical kits are located at
various center designated areas and that logs do not exist for dispensing OTC
medications. Also, sewer system work orders were reviewed; auditors toured the
Iroquois grounds; and all Iroquois buildings including dorms, classrooms and bathrooms
were physically inspected; and all significant incident reports were reviewed. We
reviewed County Health Department reports to determine whether the center operated
classes in an unsafe building. In addition, we performed walkthroughs of all Center
buildings including dorms and academic classrooms to determine whether vermin
(mice) or mildew infestation existed.

Center Managing and Reporting of Financial Activity – we interviewed ETR and Iroquois
financial management officials to gain an understanding of procurement practices. We
reviewed costs charged to Job Corps for holiday parties held in CY 2005, 2006, and
2008 to determine compliance with the FAR and ETR policy.

We interviewed Iroquois payroll officials to gain an understanding of the payroll process
and requested verification regarding potential for timecard altering, forgery, and
potential non-payment of overtime worked. We reviewed the COP to gain an
understanding of payroll requirements. We judgmentally selected time cards of non-
exempt employees where overtime pay was indicated per center records, and found the
time cards were completed with the required overtime indicated and that actual payroll
payments consistently reflected the overtime hours.

Student Attendance/Accountability – we interviewed Iroquois officials to gain an
understanding of the enrollment process and cause for a student who enrolled but never
arrived on center. We reviewed the PRH and COP to gain an understanding of
procedures required to separate students who never arrive on center, which resulted in
Iroquois over-stating the Iroquois on-board strength (OBS). We witnessed the Iroquois
process used to enroll newly arrived students. Also, we matched the OBS on the
morning report with total active students reported on the Active Student Roster in
compliance with PRH requirements. Also, we obtained a list of co-enrolled students and
a memorandum of understanding between the Center and Rochester school district
verifying student co-enrollment eligibility.

High School Equivalency Diploma and GED Program – we conducted interviews with
Iroquois officials to gain an understanding of the practices used in reporting GED and
high school diploma (GED/HSD) completions. We reviewed the PRH and COP to gain
an understanding of the requirements for GED/HSD reporting. We reviewed a statistical
sample of 30 students from a population of 130 claimed as earning GED certificates and
High School Diplomas during CY 2008 to determine if results were entered into CIS
before hard copy transcripts arrived on center.



                                                       Audit of ETR Job Corps Center Operator
                                           34                     Report No. 26-10-003-01-370
                                      U. S. Department of Labor – Office of Inspector General


Career Technical Training Program – we conducted interviews with Iroquois officials to
gain an understanding of the practices used in the reporting of career technical training
(CTT) completions. We reviewed the PRH and COP to gain an understanding of the
requirements for CTT reporting. We reviewed a judgmental sample of 15 and a
statistical sample of 30 CTT completions from a population of 224 CTT completions for
CY 2008 to determine whether Iroquois was manipulating completions.

Criteria

We used the following criteria to perform this audit:

•	   Code of Federal Regulations
•	   Federal Acquisition Regulation
•	   Job Corps Policy and Requirements Handbook
•	   Standards for Internal Control in the Federal Government (U.S. Government
     Accountability Office, November 1999)
•	   Iroquois Center Operating Contract
•	   ETR Standard Operating Procedures
•	   Iroquois Center Operating Procedures
•	   GAO Government Auditing Standards
•	   GAO Standards for Internal Control in the Federal Government




                                                        Audit of ETR Job Corps Center Operator
                                            35                     Report No. 26-10-003-01-370
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                           Audit of ETR Job Corps Center Operator
               36                     Report No. 26-10-003-01-370
                               U. S. Department of Labor – Office of Inspector General


                                                                          Appendix C
Acronyms and Abbreviations

CFR                   Code of Federal Regulations

CIS                   Center Information System

COP                   Center Operating Procedures

CTT                   Career Technical Training

CY                    Contract Year

DOL                   Department of Labor

ETA                   Employment and Training Administration

ETR                   Education and Training Resources

FAR                   Federal Acquisition Regulation

GAO                   General Accountability Office

GED                   General Educational Development

HSD                   High School Diploma

Iroquois              Iroquois Job Corps Center

OBS                   On-Board Strength

PRH                   Policy and Requirements Handbook

PY                    Program Year

SIR                   Significant Incident Report

SOP                   Standard Operating Procedures

TAR                   Training Achievement Record

WIA                   Workforce Investment Act




                                                    Audit of ETR Job Corps Center Operator
                                      37                       Report No. 26-10-003-01-370
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK





                           Audit of ETR Job Corps Center Operator
               38                     Report No. 26-10-003-01-370
                                U. S. Department of Labor – Office of Inspector General


                                                                         Appendix D
Job Corps Response to Draft Report




                                                  Audit of ETR Job Corps Center Operator
                                      39                     Report No. 26-10-003-01-370
U. S. Department of Labor – Office of Inspector General




                  Audit of ETR Job Corps Center Operator
      40                     Report No. 26-10-003-01-370
U. S. Department of Labor – Office of Inspector General




                  Audit of ETR Job Corps Center Operator
      41                     Report No. 26-10-003-01-370
U. S. Department of Labor – Office of Inspector General




                  Audit of ETR Job Corps Center Operator
      42                     Report No. 26-10-003-01-370
                               U. S. Department of Labor – Office of Inspector General


                                                                         Appendix E
ETR Response to Draft Report




                                                 Audit of ETR Job Corps Center Operator
                                     43                     Report No. 26-10-003-01-370
U. S. Department of Labor – Office of Inspector General




                  Audit of ETR Job Corps Center Operator
      44                     Report No. 26-10-003-01-370
U. S. Department of Labor – Office of Inspector General




                  Audit of ETR Job Corps Center Operator
      45                     Report No. 26-10-003-01-370
U. S. Department of Labor – Office of Inspector General




                  Audit of ETR Job Corps Center Operator
      46                     Report No. 26-10-003-01-370
U. S. Department of Labor – Office of Inspector General




                  Audit of ETR Job Corps Center Operator
      47                     Report No. 26-10-003-01-370
U. S. Department of Labor – Office of Inspector General




                  Audit of ETR Job Corps Center Operator
      48                     Report No. 26-10-003-01-370
                                   U. S. Department of Labor – Office of Inspector General


                                                                             Appendix F
Acknowledgements

Key contributors to this report were Ray Armada, Barry Weiss, Gerald Howe, John
Gruppioni, Richard Donna, and Goleda Sutton-Watson.




                                                     Audit of ETR Job Corps Center Operator
                                         49                     Report No. 26-10-003-01-370
TO REPORT FRAUD, WASTE, OR ABUSE, PLEASE CONTACT:

Online:	      http://www.oig.dol.gov/hotlineform.htm
Email:	       hotline@oig.dol.gov

Telephone:	   1-800-347-3756
              202-693-6999

Fax:          202-693-7020

Address:      Office of Inspector General
              U.S. Department of Labor
              200 Constitution Avenue, N.W.
              Room S-5506
              Washington, D.C. 20210
